No. _____________
In The Supreme Court of the United States

Keith Henderson, Petitioner
vs.
State of Minnesota, Respondent.

PROOF OF SERVICE

I, Zachary A. Longsdorf, being first duly sworn, do swear or declare that on this date,
July 13, 2020, as required by Supreme Court Rule 29, I have served the enclosed Motion for
Leave to Proceed in Forma Pauperis and Petition For A Writ of Certiorari on each party to the
above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Brittany Lawonn
Assistant County Attorney
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487

I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 13, 2020
s/ Zachary A. Longsdorf
_________________________________
Zachary A. Longsdorf

